",~ ~
 +'~g'''VIC'S''''.




( f:
'fl'.lJr

       .(lt~"iQ
                       DEPARTMENTOF
                       DEPARTMENT OFHEALTH
                                    HEALTH&.  HUMANSERVICES
                                           &. HUMAN SERVICES                                                                Office
                                                                                                                            Office of
                                                                                                                                   of Inspector


                                                                                                                            Washington,
                                                                                                                                       InspectorGeneral
                                                                                                                                                General


                                                                                                                                         D.C. 20201

                                                                                                                            Washington, D.C.   20201




                                                                         AUG 24
                                                                         AUG  2 4M09
                                                                                 20


                     TO:
                     TO:                 Charlene Frizzera
                                         Charlene Frizzera
                                         Acting Administrator
                                         Acting Administrator
                                          ent ;;:.:::;;are & Me .caid Services



                     FROM:
                                   A:.

                                      oseph E. Vengrin
                                   ient ;; Inspector
                                      Deputy =e & Me
                                             Inspector   . caid
                                                       General
                                                       General      Servces

                                                               for Audit
                                                               for Audit Services
                                                                         Services


                     SUBJECT: Review of of
                                Review     Medicare
                                        Medicare    SegmentPostretirement
                                                  Segment   PostretirementBenefit
                                                                           BenefitAssets
                                                                                  Assets at
                                                                                          at Noridian
                                                                                             Noridian
                                         Administrative Services,
                                         Administrative Services, LLC,
                                                                  LLC, for October
                                                                           October 1, 2003, to
                                                                                   1,2003,   to January 1, 2006
                                                                                                Januar 1,2006
                                         (A-07-08-00280)
                                         (A-07 -08-00280)


                                                 of our final report on the Medicare segment postretirement benefit
                     Attached is an advance copy of
                     (PRB) assets at Noridian Administrative Services,
                     (PRB)  assets at Noridian Administrative Services, LLC
                                                                        LLC (NAS).   We will
                                                                             (NAS). We  will issue
                                                                                              issue this
                                                                                                     this report to NAS
                                                                                                          report to NAS
                     within 55 business
                     within             days.
                               business days.



                     NAS administered
                           administered Medicare
                                         Medicare Part A and
                                                   Par A  and Par
                                                               PartBBoperations
                                                                      operationsunder
                                                                                  under cost
                                                                                        cost reimbursement
                                                                                              reimbursement contracts
                                                                                                                contracts
                     with the Centers for
                                       for Medicare &
                                                    & Medicaid   Services  (CMS).   CMS   reimburses     a portion
                                                                 Services (CMS). CMS reimburses a portion of       of its
                     contractors' costs for PRB plans. In
                                                        Inclaiming
                                                           claimingthese
                                                                     thesecosts,
                                                                          costs, contractors
                                                                                 contractors must
                                                                                               must follow
                                                                                                     follow cost
                                                                                                             cost
                     reimbursement principles contained in the Federal Acquisition Regulation and applicable Cost
                     Accounting Standards, as required by the Medicare contracts.

                     NAS
                     NAS submitted a request to CMS to change its accounting practice for PRBs from the pay-as­
                     you-go
                     you-go method
                              method to
                                      to the
                                          the segmented
                                              segmented accrual
                                                           accrual accounting
                                                                   accountingmethod
                                                                              methodeffective   October1,1,2003.
                                                                                     effectiveOctober     2003. CMS
                     granted  approval subject   to the findings and  recommendations of this review.
                     granted approval subject to the findings and recommendations ofthis review.       To  implement its
                     request,
                     request, NAS
                               NAS identified
                                    identified and
                                                and updated
                                                     updated Medicare
                                                              Medicare segment
                                                                         segment PRB
                                                                                 PRB assets
                                                                                     assetsto
                                                                                            to January
                                                                                                January 1,2006.
                                                                                                        1,2006.

                     Our
                     Our objective
                         objective was
                                   was to
                                        to determine
                                           determine whether NAS
                                                              NAS correctly identified and updated changes in the
                     Medicare
                     Medicare segment's PRB assets from October 1,2003,
                              segment's   PRB   assets from October 1,2003, to January 1,2006.
                                                                                        1,2006.

                     NAS
                     NAS correctly
                              correctly identified
                                             identifiedthe    the Medicare
                                                                    Medicaresegment's
                                                                                    segment's OctoberOctober 1,2003,1,2003, PRB assets. However,
                                                                                                                                         However, NAS
                                                                                                                                                    NAS
                     did   not
                     did not     correctly
                             correctly          update
                                       update the           the
                                                  assets from     assets
                                                              October       from
                                                                      1,2003,        October
                                                                              to Januar            1,2003,
                                                                                        1,2006. As part of 
     to January 1,2006. As part of thethe
                     change
                     change in its accounting practice, NAS was required to identify and
                                 in  its  accounting         practice,     NAS      was    required       to   identify  and update
                                                                                                                             update the
                                                                                                                                     the Medicare
                                                                                                                                         Medicare
                     segment's
                     segment'sPRB      PRBassets.
                                               assets.However,
                                                            However, NAS    NAS made made errors
                                                                                               errors in  in its
                                                                                                              its update
                                                                                                                  updatecomputations.
                                                                                                                          computations. As a result,
                                                                                                                                              result, NAS .
                     understated
                     understatedthe      theMedicare
                                               Medicaresegment segmentassets  assetsas  asofofJanuary
                                                                                                 January1,2006,1,2006, byby $2,384,465.
                                                                                                                            $2,384,465. In addition, NAS
                                                                                                                                                      NAS
                     did
                     did not
                           not make
                                  make adjustments
                                           adjustments for     for participants
                                                                     participants who    who transferred
                                                                                                transferred into        and out of the Medicare segment.
                                                                                                                   into and                     segment.
Page 2 – Charlene Frizzera


We recommend that NAS increase the Medicare segment PRB assets by $2,384,465 as of
January 1, 2006, and make adjustments for participant transfers in future updates.

In written comments, NAS disagreed with our draft report’s recommendation to increase the
Medicare segment PRB assets by $2,677,457 and indicated that the assets need to be increased
by $2,384,465. NAS concurred with our recommendation to make adjustments for participant
transfers in future updates.

After reviewing NAS’s comments, as well as additional information provided by NAS’s actuary,
we revised the calculations and related recommendation in our final report to reflect the dollar
amount indicated in NAS’s comments.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at George.Reeb@oig.hhs.gov
or Patrick J. Cogley, Regional Inspector General for Audit Services, Region VII, at
(816) 426-3591 or through email at Patrick.Cogley@oig.hhs.gov. Please refer to report number
A-07-08-00280.


Attachment
(:~          DEPARTMENT 0 .. HEALTH & HUMAN SERVICES
                                                                                              Oflce 01
                                                                                              Office
                                                                                              Offices
                                                                                                         Inspector~enCltal
                                                                                                     of Inspector
                                                                                                      of Audit
                                                                                              Oflces 01
                                                                                                                   "eneral
                                                                                                          Audil SCtvir.es
                                                                                                                Services


 ""~~
  ~~
(-Æ DEPARTMENT          OF HEALTH & HlIMAN SERVICES

                                                                                              Region VII

                                               AUG 2 88 2009
                                               AUG 2    209
                                  601 East 121h
                                                                                              601 Easi
                                                                                              Room
                                                                                              Room 284A
                                                                                                       12th 51reel

                                                                                                              Sitaet

                                                                                              Kansa CUy.
                                                                                              Kansas  Cily. Missouri
                                                                                                            'Jlissouri 64108
                                                                                                                       64106
   Report Number:
   Report Number: A-07-08-00280

   Mr. David Breuer
   Mr.
          Vice President of Finance and Chief
   Senior Vice                          Chief Financial Officer
   Noridian Mutual Insurance Company
   4510 13th Avenue South
   Fargo, North
   Fargo, North Dakota
                Dakota 58121-0001
                        58121-0001

   Dear Mr. Breuer:

   Enclosed
   Enclosed is the is the
                   U.S.     U.S.of Department
                        Deparment    
                              Human Services
                                                      of Health and Human   Services (HHS),
                                                                                     (HHS), Office
                                                                                              Office ofInspector
                                                                                                     ofInspector
   General
   General (OIG),(OIG),     final
                  final report       report
                               entitled "Review entitled
                                                of 
     "Review of Medicare Segment Postretirement Benefit Assets
   at Noridian
   at  Noridian Administrative
                       Administrative Services, Services,LLC,
                                                           LLC,for
                                                                 forOctober
                                                                     October1,2003,
                                                                             1,2003,totoJanuary
                                                                                          Januar1,2006."
                                                                                                 1,2006." We
                                                                                                           We will
                                                                                                               will
   forward a copy of this report to the HHS action official noted on the following page for review
   and any action deemed necessary.

  The HHSHHS action official  official will
                                          wil make
                                                 make finalfmal determination
                                                                   determination as as to
                                                                                       to actions
                                                                                          actions taken on
                                                                                                        on all
                                                                                                           all matters
                                                                                                               matters reported.
  We    request
  We request that youthat   you
                      respond      respond
                              to this            to this
                                      official within       official
                                                      30 days            within
                                                              from the date of  30 days from the date of this letter.
                                                                                                               letter. Your
  response should present any comments or additional information that you believe may have a
  bearing on the final determination.

  Pursuant to the Freedom
                   Freedom ofInformation
                             ofInformation Act,
                                             Act, 55 U.S.C.
                                                     U.S.C. §§ 552,
                                                               552, OIG
                                                                    OIG reports generally
                                                                                    generally are made
  available to
            to the
               the public
                   public to the extent
                                 extent that
                                        that information
                                              information in the report isis notsubject
                                                                             notsubject to exemptions
                                                                                            exemptions in
  the Act.
      Act. Accordingly,
           Accordingly, this report
                               report wil
                                      willbe
                                           beposted
                                               postedon
                                                      onthe
                                                         the Internet
                                                              Internet at
                                                                       at http://oig.hhs.gov.
                                                                           http://oig.hhs.gov.

  If you have any questions or comments about this report, please do not hesitate to call me, or
  contact Jenenne Tambke, Audit Manager, at (573) 893-8338, extension 21, or through email at
  Jenenne.Tambke(foig.hhs.gov.
  Jenenne.Tambke@oig.hhs.gov. Please                     number A-07-08-00280
                                  Please refer to report number A-07-08-00280 in all
  correspondence.




                                                            Patrick
                                                            Patrick J. Cogley
                                                            Regional Inspector General
                                                             for Audit Services


  Enclosure
Page 2 – Mr. David Breuer


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




REVIEW OF MEDICARE SEGMENT
  POSTRETIREMENT BENEFIT
     ASSETS AT NORIDIAN
  ADMINISTRATIVE SERVICES,
 LLC, FOR OCTOBER 1, 2003,
     TO JANUARY 1, 2006




                    Daniel R. Levinson
                     Inspector General

                       August 2009
                      A-07-08-00280
                      Office of Inspector General
                                           http://oig.hhs.gov



The
The mission
     mission of
              of the
                 the Office
                     Office of
                             of Inspector
                                Inspector General
                                           General (OIG),
                                                    (OIG), as
                                                           as mandated
                                                              mandated by
                                                                        by Public
                                                                           Public Law
                                                                                   Law 95-452,
                                                                                        95-452, as
                                                                                                 as
amended,
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
           is to protect the  integrity of the Department   of Health and Human    Services  (HHS)
programs,
programs, asas well
               well as
                     as the
                        the health
                             health and
                                     and welfare
                                         welfare of
                                                  of beneficiaries
                                                     beneficiaries served
                                                                   served by
                                                                          by those
                                                                               those programs.
                                                                                     programs. This
                                                                                                 This
statutory
statutory mission
          mission isis carried
                       carried out
                               out through
                                    through aa nationwide
                                               nationwide network
                                                           network of
                                                                    of audits,
                                                                       audits, investigations,
                                                                               investigations, and
                                                                                               and
inspections
inspections conducted
             conducted by by the
                             the following
                                  following operating
                                             operating components:
                                                       components:

Office
Office of
       of Audit
          Audit Services
                Services
The
The Office
     Office of
            of Audit
                Audit Services
                      Services (OAS)
                               (OAS) provides
                                       provides auditing
                                                 auditing services
                                                           services for
                                                                    for HHS,
                                                                        HHS, either
                                                                               either by
                                                                                      by conducting
                                                                                         conducting
audits
audits with
       with its
            its own
                own audit
                     audit resources
                           resources or
                                     or by
                                        by overseeing
                                           overseeing audit
                                                        audit work
                                                              work done
                                                                    done by
                                                                          by others.
                                                                              others. Audits
                                                                                       Audits examine
                                                                                              examine
the
the performance
    performance ofof HHS
                     HHS programs
                           programs and/or
                                     and/or its
                                            its grantees
                                                grantees and
                                                          and contractors
                                                              contractors in
                                                                           in carrying
                                                                              carrying out
                                                                                        out their
                                                                                            their
respective
respective responsibilities
           responsibilities and
                            and are
                                are intended
                                    intended to
                                              to provide
                                                 provide independent
                                                          independent assessments
                                                                        assessments ofof HHS
                                                                                         HHS
programs
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
          and   operations. These  assessments  help reduce   waste, abuse,  and  mismanagement   and
promote
promote economy
         economy andand efficiency
                        efficiency throughout
                                   throughout HHS.
                                                HHS.

Office
Office of
       of Evaluation
          Evaluation and
                     and Inspections
                         Inspections
The
The Office
     Office of
            of Evaluation
               Evaluation and
                           and Inspections
                                Inspections (OEI)
                                             (OEI) conducts
                                                    conducts national
                                                              national evaluations
                                                                        evaluations to
                                                                                     to provide
                                                                                        provide HHS,
                                                                                                 HHS,
Congress,
Congress, and
           and the
               the public
                   public with
                           with timely,
                                 timely, useful,
                                         useful, and
                                                 and reliable
                                                     reliable information
                                                              information onon significant
                                                                               significant issues.
                                                                                           issues.
These
These evaluations
       evaluations focus
                    focus on
                          on preventing
                             preventing fraud,
                                          fraud, waste,
                                                 waste, or
                                                        or abuse
                                                           abuse and
                                                                  and promoting
                                                                       promoting economy,
                                                                                   economy,
efficiency,
efficiency, and effectiveness of departmental programs. To promote impact, OEI
            and effectiveness  of  departmental  programs.   To  promote  impact,  OEI reports
                                                                                         reports also
                                                                                                 also
present practical recommendations     for improving   program   operations.
present practical recommendations for improving program operations.

Office
Office of
       of Investigations
          Investigations
The
The Office
     Office of
            of Investigations
               Investigations (OI)
                                (OI) conducts
                                      conducts criminal,
                                                criminal, civil,
                                                           civil, and
                                                                  and administrative
                                                                       administrative investigations
                                                                                       investigations ofof
fraud
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
      and misconduct    related  to HHS   programs,   operations,  and  beneficiaries.    With
investigators
investigators working
              working inin all
                           all 50
                               50 States
                                   States and
                                          and the
                                              the District
                                                   District of
                                                            of Columbia,
                                                               Columbia, OI OI utilizes
                                                                               utilizes its
                                                                                         its resources
                                                                                             resources by
                                                                                                        by
actively
actively coordinating
         coordinating with
                       with the
                             the Department
                                   Department of
                                               of Justice
                                                   Justice and
                                                           and other
                                                                other Federal,
                                                                       Federal, State,
                                                                                State, and
                                                                                        and local
                                                                                              local law
                                                                                                    law
enforcement
enforcement authorities.
              authorities. The
                            The investigative
                                  investigative efforts
                                                efforts of
                                                        of OI
                                                           OI often
                                                               often lead
                                                                      lead to
                                                                           to criminal
                                                                              criminal convictions,
                                                                                        convictions,
administrative  sanctions,  and/or  civil monetary   penalties.
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The
The Office
     Office of
            of Counsel
               Counsel to
                        to the
                           the Inspector
                               Inspector General
                                           General (OCIG)
                                                    (OCIG) provides
                                                             provides general
                                                                        general legal
                                                                                 legal services
                                                                                       services toto OIG,
                                                                                                     OIG,
rendering
rendering advice
          advice and
                  and opinions
                       opinions on
                                 on HHS
                                     HHS programs
                                           programs and
                                                      and operations
                                                          operations andand providing
                                                                             providing all
                                                                                        all legal
                                                                                            legal support
                                                                                                   support
for
for OIG’s
    OIG’s internal
           internal operations.
                    operations. OCIG
                                 OCIG represents
                                         represents OIG
                                                     OIG in
                                                          in all
                                                             all civil
                                                                 civil and
                                                                       and administrative
                                                                            administrative fraud
                                                                                             fraud and
                                                                                                    and
abuse
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
      cases  involving  HHS   programs,   including  False Claims    Act, program    exclusion,  and  civil
monetary
monetary penalty
          penalty cases.
                   cases. In
                          In connection
                              connection with
                                           with these
                                                these cases,
                                                       cases, OCIG
                                                              OCIG also
                                                                      also negotiates
                                                                           negotiates and
                                                                                       and monitors
                                                                                             monitors
corporate
corporate integrity
          integrity agreements.
                    agreements. OCIGOCIG renders
                                           renders advisory
                                                   advisory opinions,
                                                             opinions, issues
                                                                         issues compliance
                                                                                compliance program
                                                                                               program
guidance,
guidance, publishes fraud alerts, and provides other guidance to the health care
          publishes  fraud  alerts, and provides  other  guidance   to the health  care industry
                                                                                        industry
concerning
concerning the
            the anti-kickback
                anti-kickback statute
                                statute and
                                        and other
                                             other OIG
                                                   OIG enforcement
                                                        enforcement authorities.
                                                                        authorities.
                           Notices

     THIS REPORT IS AVAILABLE TO THE PUBLIC
               at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

During our audit period (October 1, 2003, to January 1, 2006), Noridian Administrative Services,
LLC (NAS), administered Medicare Parts A and B operations under cost reimbursement
contracts with the Centers for Medicare & Medicaid Services (CMS).

Medicare reimburses a portion of contractors’ costs for postretirement benefit (PRB) plans. In
claiming these costs, contractors must follow cost reimbursement principles contained in the
Federal Acquisition Regulation and applicable Cost Accounting Standards, as required by the
Medicare contracts. In addition, the Medicare contracts and the annual Budget and Performance
Requirements mandate that any change in accounting practice for PRB costs be submitted to
CMS for approval.

NAS submitted a request to CMS to change its accounting practice for PRBs from the pay-as-
you-go method to the segmented accrual accounting method effective October 1, 2003. CMS
granted approval subject to the findings and recommendations of this review. Noridian Mutual
Insurance Company, the parent company of NAS, also established a voluntary employee benefit
association trust to fund annual accruals. To implement its request, NAS identified and updated
Medicare segment PRB assets to January 1, 2006.

OBJECTIVE

Our objective was to determine whether NAS correctly identified and updated changes in the
Medicare segment’s PRB assets from October 1, 2003, to January 1, 2006.

SUMMARY OF FINDINGS

NAS correctly identified the Medicare segment’s October 1, 2003, PRB assets. However, NAS
did not correctly update the assets from October 1, 2003, to January 1, 2006. As part of the
change in its accounting practice, NAS was required to identify and update the Medicare
segment’s PRB assets. However, NAS made errors in its update computations. As a result, NAS
understated the Medicare segment assets as of January 1, 2006, by $2,384,465. In addition, NAS
did not make adjustments for participants who transferred into and out of the Medicare segment.

RECOMMENDATIONS

We recommend that NAS:

   •   increase the Medicare segment PRB assets by $2,384,465 as of January 1, 2006, and

   •   make adjustments for participant transfers in future updates.




                                                i
AUDITEE COMMENTS

In written comments, NAS disagreed with our draft report’s recommendation to increase the
Medicare segment PRB assets by $2,677,457. NAS stated that its actuary had worked with us on
a revised calculation, the result of which was that “. . . Medicare segment [PRB] assets need to
be increased by $2,384,465 as of January 1, 2006.” NAS concurred with our recommendation to
make adjustments for participant transfers in future updates.

NAS’s comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing NAS’s comments, as well as additional information provided by NAS’s actuary,
we revised the calculations and related recommendation in this final report to reflect the dollar
amount indicated in NAS’s comments.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                                   Page

INTRODUCTION......................................................................................................................1

       BACKGROUND ................................................................................................................1
           Noridian Administrative Services, LLC, and Medicare .........................................1
           Request To Use Segmented Postretirement Benefit Accrual Accounting..............1
           Federal Regulations ................................................................................................1

       OBJECTIVE, SCOPE, AND METHODOLOGY ..............................................................2
            Objective .................................................................................................................2
            Scope.......................................................................................................................2
            Methodology ...........................................................................................................2

FINDINGS AND RECOMMENDATIONS ............................................................................3

       FEDERAL REQUIREMENTS ...........................................................................................3

      ERRORS IN UPDATE OF MEDICARE SEGMENT ASSETS.........................................4
           Understated Contributions and Transferred Prepayment Credits ............................4
           Understated Claims Paid..........................................................................................4
           Understated Net Investment Earnings .....................................................................4
           Participant Transfers ................................................................................................4

        RECOMMENDATIONS...................................................................................................5

        AUDITEE COMMENTS...................................................................................................5

        OFFICE OF INSPECTOR GENERAL RESPONSE ........................................................5

APPENDIXES

        A – STATEMENT OF MEDICARE POSTRETIREMENT BENEFIT ASSETS

        B – AUDITEE COMMENTS




                                                                    iii
                                                INTRODUCTION

BACKGROUND

Noridian Administrative Services, LLC, and Medicare

During our audit period (October 1, 2003, to January 1, 2006), Noridian Administrative Services,
LLC (NAS), administered Medicare Parts A and B operations under cost reimbursement
contracts with the Centers for Medicare & Medicaid Services (CMS).

Medicare reimburses a portion of contractors’ costs for postretirement benefit (PRB) plans. In
claiming these costs, contractors must follow cost reimbursement principles contained in the
Federal Acquisition Regulation (FAR) and applicable Cost Accounting Standards (CAS), as
required by the Medicare contracts.

Request To Use Segmented Postretirement Benefit Accrual Accounting

Since 1993, the “Budget and Performance Requirements” instructions sent to Medicare
contractors have included a reminder of the special provisions regarding costs of PRB plans.
The instructions specify that any change in accounting practice for PRB costs must be submitted
to CMS in advance for approval.

NAS submitted a request to CMS to change its accounting practice for PRB costs from the pay-
as-you-go method to the segmented accrual accounting method effective October 1, 2003. CMS
granted approval subject to the findings and recommendations of this review. NAS, through
Noridian Mutual Insurance Company (its parent company), participates in a voluntary employee
benefit association (VEBA) trust for the purpose of funding annual accruals. Because NAS’s
request specified segmented accrual accounting for the Medicare segment, NAS identified and
updated the Medicare segment’s PRB assets to January 1, 2006. 1

Federal Regulations

The FAR states that accrual accounting may be used to determine allowable PRB costs if the
costs are measured and assigned (actuarially determined) in accordance with generally accepted
accounting principles. FAR 31.205-6(o) requires that PRB accrual costs be funded in a
dedicated trust fund, such as a VEBA trust. The FAR also states that allowable costs must be
funded by the time set for filing the Federal income tax return or any extension thereof and must
comply with the applicable standards promulgated by the CAS Board.




1
 The identification is the establishment of the initial asset base. The initial asset base is updated annually by
contributions, permitted unfunded accruals, income, benefit payments, and expenses.


                                                            1
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether NAS correctly identified and updated changes in the
Medicare segment’s PRB assets from October 1, 2003, to January 1, 2006.

Scope

We reviewed NAS’s identification of the Medicare segment and its identification and update of
Medicare PRB assets from October 1, 2003, to January 1, 2006.

Achieving our objective did not require us to review NAS’s overall internal control structure.
We reviewed internal controls relating to the identification of the Medicare segment and the
update of the Medicare segment PRB assets.

We performed fieldwork at NAS’s office in Fargo, North Dakota.

Methodology

To accomplish our objective, we did the following:

   •     We reviewed the applicable portions of the FAR, CAS, and Medicare contracts.

   •     We reviewed the information provided by NAS’s actuarial consulting firm, which
         included the VEBA assets, PRB obligations, service costs, contributions, claims paid,
         investment earnings, and administrative expenses. We used this information to
         calculate the Medicare segment PRB assets.

   •     We reviewed the PRB plan documents, Department of Labor/Internal Revenue Service
         Forms 5500, VEBA trust transaction documents, and PRB actuarial valuation reports.
         The valuation reports included Statement of Financial Accounting Standards 106
         information. We used this information to calculate the Medicare segment PRB assets.

   •     We interviewed NAS staff responsible for determining the methodology that NAS used
         in its identification of the Medicare segment.

   •     We reviewed NAS accounting records to verify the segment identification.

   •     We provided the CMS Office of the Actuary with the actuarial information necessary
         for it to calculate the Medicare segment PRB assets as of January 1, 2006.

   •     We reviewed and accepted the CMS Office of the Actuary’s methodology and
         calculations.




                                                2
We performed this review in conjunction with our audit of NAS’s PRB costs claimed for
Medicare reimbursement (A-07-08-00281) and used the information obtained during that audit in
this review. We also used information obtained in conjunction with our audit of NAS’s pension
segmentation (A-07-08-00258). That information included the identification of the Medicare
segment and the Medicare segment participants.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

NAS correctly identified the Medicare segment’s October 1, 2003, PRB assets. However, NAS
did not correctly update the assets from October 1, 2003, to January 1, 2006. As part of the
change in its accounting practice, NAS was required to identify and update the Medicare
segment’s PRB assets. However, NAS made errors in its update computations. As a result, NAS
understated the Medicare segment assets as of January 1, 2006, by $2,384,465. In addition, NAS
did not make adjustments for participants who transferred into and out of the Medicare segment.

Appendix A presents details on the Medicare segment’s PRB assets from October 1, 2003, to
January 1, 2006, as determined during our audit. The following table summarizes the differences
between our update and NAS’s update of these assets.

                     Differences in Update of Medicare Segment PRB Assets
                                                       Per Audit   Per NAS            Difference

Contributions and transferred prepayment credits        $ 7,651,777 $ 5,551,710 $ 2,100,067
Claims paid                                                (292,869)   (280,129)     (12,740)
Net investment earnings                                     484,203     187,065      297,138
 Understatement                                                                  $ 2,384,465

FEDERAL REQUIREMENTS

The Medicare contracts do not require segmented accrual accounting for PRBs. However,
because NAS stated that it would use segmented accrual accounting effective October 1, 2003,
we used the Medicare contracts’ pension segmentation requirements as authoritative guidance.
The Medicare contracts state that “. . . the pension assets allocated to each Medicare Segment
shall be adjusted in accordance with CAS 413.50(c)(7).” CAS 413.50(c)(7) requires that the
asset base be updated by contributions, permitted unfunded accruals, income, benefit payments,
and expenses. For plan years beginning after March 30, 1995, the CAS requires investment
income and expenses to be allocated among segments based on the ratio of the segment’s
weighted average value of assets to the total company weighted average value of assets.




                                               3
ERRORS IN UPDATE OF MEDICARE SEGMENT ASSETS

In its asset update, NAS understated contributions and transferred prepayment credits by
$2,100,067, understated claims paid by $12,740, and understated net investment earnings by
$297,138. NAS also did not adjust its asset update for participant transfers.

Understated Contributions and Transferred Prepayment Credits

NAS understated contributions and transferred prepayment credits for the Medicare segment by
$2,100,067. NAS’s update methodology stated that VEBA contributions would be assigned to
the Medicare segment based on the segment’s prior-year reimbursable costs. However, NAS did
not use its stated methodology to assign VEBA contributions to the Medicare segment. Instead,
NAS used segmented costs as the basis for assigning VEBA contributions to the Medicare
segment. To determine the correct update of the Medicare segment’s PRB assets, we followed
NAS’s stated methodology by using the segment’s prior-year reimbursable costs as the basis for
assigning contributions and prepayment credits to the Medicare segment. 2

Understated Claims Paid

NAS understated claims paid for the Medicare segment by $12,740 because it misidentified
some Medicare segment participants. This error resulted in an overstatement of the Medicare
segment PRB assets.

Understated Net Investment Earnings

NAS understated net investment earnings for the Medicare segment by $297,138 primarily
because it used incorrect amounts of contributions, transferred prepayment credits, and claims
paid, as discussed above, to update the Medicare asset base. The understatement of net
investment earnings led to a $297,138 understatement of the Medicare segment assets.

Participant Transfers

In its request to change its accounting practice, NAS stated that it would make adjustments for
participants who transferred into and out of the Medicare segment. However, NAS’s asset
update did not contain such adjustments. Although we determined that this error had no material
effect during our review period, future asset updates may be materially misstated if NAS does
not properly adjust for transfers.




2
 We addressed the development of PRB costs that were allowable for Medicare reimbursement in a related review
(A-07-08-00281).


                                                       4
RECOMMENDATIONS

We recommend that NAS:

       •    increase the Medicare segment PRB assets by $2,384,465 as of January 1, 2006, and

       •    make adjustments for participant transfers in future updates.

AUDITEE COMMENTS

In written comments, 3 NAS disagreed with our draft report’s recommendation to increase the
Medicare segment PRB assets by $2,677,457. NAS stated that its actuary had worked with us on
a revised calculation, the result of which was that “. . . Medicare segment [PRB] assets need to
be increased by $2,384,465 as of January 1, 2006.” NAS concurred with our recommendation to
make adjustments for participant transfers in future updates.

NAS’s comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing NAS’s comments, as well as additional information provided by NAS’s actuary,
we revised the calculations and related recommendation in this final report to reflect the dollar
amount indicated in NAS’s comments.




3
    NAS provided a single set of written comments on both this report and a related report (A-07-08-00281).


                                                           5
APPENDIXES
                                                                                   APPENDIX A
                                                                                     Page 1 of 2



         STATEMENT OF MEDICARE POSTRETIREMENT BENEFIT ASSETS


             Description                Total Company     Other Segment     Medicare Segment

  Assets October 1, 2003           1/                $0                $0                    $0

  Transferred prepayment credits                     0                 0                  0
  Contributions                    2/        7,100,000         6,156,363            943,637
  Claims paid                      3/                0                 0                  0
  Investment return                4/                0                 0                  0

  Assets January 1, 2004                     7,100,000         6,156,363            943,637

  Transferred prepayment credits   5/                0        (2,615,477)          2,615,477
  Contributions                              4,100,000         3,177,822             922,178
  Claims paid                                 (952,335)         (796,506)           (155,829)
  Investment return                            474,764           241,188             233,576

  Assets January 1, 2005                    10,722,429         6,163,390           4,559,039

  Transferred prepayment credits                     0        (1,168,488)          1,168,488
  Contributions                              5,500,000         3,498,003           2,001,997
  Claims paid                                 (769,187)         (632,147)           (137,040)
  Investment return                            497,887           247,260             250,627

  Assets January 1, 2006                   $15,951,129        $8,108,018         $7,843,111
  Per NAS                          6/      $15,951,129       $10,492,483         $5,458,646
   Asset variance                  7/               $0       ($2,384,465)        $2,384,465


  FOOTNOTES

1/ We obtained Total Company assets from postretirement benefits (PRB) actuarial valuation
   reports. The Total Company represents Noridian Mutual Insurance Company, the parent
   company of Noridian Administrative Services, LLC (NAS). In 2003, there were no initial
   assets assigned to the Medicare segment. The amounts shown for the “Other” segment
   represent the difference between the Total Company and NAS, the Medicare segment. All
   PRB assets are shown at market value.
                                                                                        APPENDIX A
                                                                                          Page 2 of 2




2/ We obtained Total Company contribution amounts from PRB actuarial valuation reports and
   trust statements. We allocated Total Company contributions to the Medicare segment based
   on the ratio of the Medicare segment current-period funding requirement divided by the Total
   Company current-period funding requirement after the application of any accumulated
   prepayment credits. Contributions in excess of the current-period funding requirement were
   treated as prepayment credits and accounted for in the “Other” segment until needed to fund
   PRB costs in the future. The amounts represent funds deposited in the trust.

3/ Claims paid represent benefits paid directly from the trust fund. We obtained Medicare
   segment claims paid amounts from documents prepared by NAS’s actuarial consulting firm.

4/ We obtained investment earnings from the PRB actuarial valuation reports and documents
   prepared by NAS’s actuarial consulting firm. We allocated net investment earnings based on
   the ratio of the segment’s weighted average value (WAV) of assets to Total Company WAV
   of assets.

5/ A prepayment credit represents the accumulated value of premature funding from the previous
   year(s) and is available as of the first day of the plan year to cover, or help cover, the cost
   assigned to that period. Prepayment credits are accounted for as a part of the “Other” segment
   assets and are transferred to the Medicare segment as of the first day of each plan year to cover
   the cost assigned to that year.

6/ We obtained asset amounts as of January 1, 2006, from documents prepared by NAS’s
   actuarial consulting firm.

7/ The asset variance represents the difference between our calculation of Medicare segment
   assets and NAS’s Medicare segment assets.
APPENDIX B
  Page 1 of 2
APPENDIX B
  Page 2 of 2
